TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Procedures Allowed Inconsistent Processing
                   of Streamlined Installment Agreements



                                            July 8, 2011

                              Reference Number 2011-30-063




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


PROCEDURES ALLOWED                                      Although the IRS was following procedures for
INCONSISTENT PROCESSING OF                              processing streamlined installment agreements,
STREAMLINED INSTALLMENT                                 the procedures allowed for inconsistent
AGREEMENTS                                              processing and treatment of taxpayers.
                                                        Specifically, payment amounts for some
                                                        streamlined installment agreements will not fully
Highlights                                              pay the liability within 60 months, streamlined
                                                        installment agreements with multiple defaults
                                                        were reinstated without additional review, and
Final Report issued on July 8, 2011                     taxpayers were not always offered extensions to
                                                        pay instead of streamlined installment
Highlights of Reference Number: 2011-30-063             agreements.
to the Internal Revenue Service Commissioners
for the Small Business/Self-Employed Division           Inconsistent processing and treatment of
and the Wage and Investment Division.                   taxpayers may cause inefficient use of IRS
                                                        resources and jeopardize the IRS’s ability to
IMPACT ON TAXPAYERS                                     collect tax liabilities. Inconsistencies can also
Taxpayers can make payments for their taxes in          cause economic hardships on taxpayers and
installment payments if it will facilitate collection   may potentially lead to future tax liabilities.
of the liabilities. However, some agreements will       WHAT TIGTA RECOMMENDED
not be paid off when expected or were
reinstated after multiple defaults, and options         TIGTA made several recommendations to revise
about how to avoid the user fees were not               the streamlined installment agreement
consistently communicated to taxpayers.                 procedures.
Taxpayers paid more than $1 million in user fees
that could have been avoided, and thousands of          In their response to the report, IRS officials
taxpayers may have been surprised to learn              agreed with the recommendations and plan to
they still owed taxes after they completed the          take steps to address TIGTA’s concerns.
terms of their streamlined installment                  However, IRS officials disagreed with our
agreements.                                             reported outcome measure because they do not
                                                        believe all taxpayers would have waived appeal
WHY TIGTA DID THE AUDIT                                 rights to avoid paying an installment agreement
                                                        user fee. TIGTA maintains the reported
The objective of this review was to determine           outcome measure is reasonable. TIGTA agrees
whether streamlined installment agreement               that it is unknown if all taxpayers would have
requirements are consistently applied. TIGTA            waived appeal rights, which is why the outcome
also evaluated the processing of defaulted              measure is reported as “potential.”
streamlined installment agreements for potential
improvements.
WHAT TIGTA FOUND
The streamlined installment agreement program
has brought in large amounts of revenue with
minimal Internal Revenue Service (IRS)
processing, while decreasing taxpayer burden
by reducing the amount of documentation
required. In Fiscal Year 2010, approximately
3.1 million taxpayers entered into streamlined
installment agreements. In the same period,
approximately $5.9 billion was collected and
1.7 million taxpayers fully paid their liabilities
through streamlined installment agreements.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 July 8, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Procedures Allowed Inconsistent Processing of
                                 Streamlined Installment Agreements (Audit # 201030017)

 This report presents the results of our review to determine whether streamlined installment
 agreement1 requirements are consistently applied. We also evaluated the processing of defaulted
 streamlined installment agreements for potential improvements. This audit was initiated as part
 of our Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     See Appendix V for a glossary of terms.
                                       Procedures Allowed Inconsistent Processing
                                         of Streamlined Installment Agreements




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Some Liabilities Will Not Be Fully Paid Within
          60 Months ..................................................................................................... Page 3
                    Recommendation 1:.......................................................... Page 4

          Procedures Allow Multiple Reinstatements of Defaulted
          Streamlined Installment Agreements Without Additional
          Review .......................................................................................................... Page 5
                    Recommendation 2:.......................................................... Page 6

          Taxpayers Are Not Always Offered Extensions to Pay
          Instead of Streamlined Installment Agreements ........................................... Page 6
                    Recommendation 3:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Outcome Measures............................................................... Page 13
          Appendix V – Glossary of Terms ................................................................. Page 14
          Appendix VI – Management’s Response to the Draft Report ...................... Page 16
        Procedures Allowed Inconsistent Processing
          of Streamlined Installment Agreements




              Abbreviations

IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
W&I     Wage and Investment
                                  Procedures Allowed Inconsistent Processing
                                    of Streamlined Installment Agreements




                                              Background

The Internal Revenue Code1 allows taxpayers to make payments on any tax in installment
payments if such an arrangement will facilitate collection of the liabilities. Taxpayers are
encouraged to pay their liabilities in full to avoid the costs of an installment agreement,2 which
include a user fee, the accrual of penalties and interest, and the possible filing of a Notice of
Federal Tax Lien. Generally, no levies may be served to the taxpayer as long as the taxpayer
remains in compliance with the terms of the installment agreement.
The Internal Revenue Service (IRS) created a provision for taxpayers with aggregate assessed
individual and business income tax liabilities equal to $25,000 or less, called streamlined
installment agreements. Streamlined installment agreements benefit taxpayers because they are
generally processed quickly without a financial analysis or managerial approval and do not
require a lien determination.
Taxpayers can request a streamlined installment agreement by submitting Installment Agreement
Request (Form 9465), completing the online application on the IRS web site, or contacting the
IRS directly. Taxpayers may qualify for a streamlined installment agreement under the
following conditions:
      •    The aggregate unpaid balance of assessments is $25,000 or less. The unpaid balance of
           assessments includes tax, assessed penalty and interest, and all other assessments on the
           account. It does not include penalties and interest that will continue to accrue.
      •    If pre-assessed taxes are included, the pre-assessed liability plus unpaid balance of
           assessments must be $25,000 or less.
      •    The aggregate unpaid balance of assessments must be fully paid in 60 months or by the
           Collection Statute Expiration Date, whichever comes first.
Taxpayers who do not meet the conditions for a streamlined installment agreement may enter
into a non-streamlined installment agreement. The non-streamlined installment agreements
require the taxpayer to complete a financial statement and must be approved by an IRS manager.
Streamlined installment agreements make up the vast majority of installment agreements
initiated by taxpayers. During Fiscal Year 2010, 94 percent of installment agreements initiated
were streamlined installment agreements. During the same period, 18 percent of taxpayers with
streamlined installment agreements defaulted on their agreements.


1
    Internal Revenue Code Section 6159.
2
    See Appendix V for a glossary of terms.
                                                                                                   Page 1
                            Procedures Allowed Inconsistent Processing
                              of Streamlined Installment Agreements



This review was performed at the Small Business/Self-Employed (SB/SE) Division headquarters
office in New Carrollton, Maryland, the Wage and Investment (W&I) Division headquarters
office in Atlanta, Georgia, and campuses in Philadelphia, Pennsylvania, and Kansas City,
Missouri, during the period June 2010 through February 2011. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 2
                                Procedures Allowed Inconsistent Processing
                                  of Streamlined Installment Agreements




                                      Results of Review

The streamlined installment agreement program has brought in large amounts of revenue with
minimal IRS processing, while decreasing taxpayer burden by reducing the amount of
documentation required. In Fiscal Year 2010, approximately 3.1 million taxpayers entered into
streamlined installment agreements. In the same period, approximately $5.9 billion was
collected and 1.7 million taxpayers paid their liabilities in full through streamlined installment
agreements.
We selected a random sample of 139 streamlined installment agreements initiated between
October 2009 and April 20103 to determine whether the streamlined installment agreements were
worked properly and procedures were followed. We reviewed information retained in the
Integrated Data Retrieval System and Accounts Management System/Desktop Integration, as
appropriate.
The results of our review showed that while the streamlined installment agreement program has
brought in significant revenue, changes can be made to provide for more consistent and effective
processing, as well as more equitable treatment of taxpayers. Specifically, we determined that:
    •   Some liabilities will not be fully paid within 60 months.
    •   Procedures allow multiple reinstatements of defaulted streamlined installment agreements
        without additional review.
    •   Taxpayers are not always offered extensions to pay instead of streamlined installment
        agreements.

Some Liabilities Will Not Be Fully Paid Within 60 Months
Taxpayers can request to initiate a streamlined installment agreement if their aggregate assessed
balance is $25,000 or less and the liability can be fully paid within 60 months or by the
Collection Statute Expiration Date, whichever is sooner. The Internal Revenue Manual requires
the IRS to calculate the minimum streamlined installment agreement payments by dividing the
outstanding aggregate assessed balance due by up to 60 months or by the number of months
remaining before the Collection Statute Expiration Date. The accrual of penalty and interest is
not considered when determining the minimum payment amount.

3
 A valid statistical sample was selected from a population of 672,304 streamlined installment agreements accepted
during the first 6 months of Fiscal Year 2010 (October 4, 2009, to April 3, 2010). The sample of 139 records was
based on a confidence level of 95 percent with a precision level of ±5 percent and an expected error rate of
10 percent.
                                                                                                          Page 3
                            Procedures Allowed Inconsistent Processing
                              of Streamlined Installment Agreements



The IRS is computing minimum streamlined installment agreement payments in accordance with
Internal Revenue Manual procedures. However, because the computation does not consider
current and future accruals of penalties and interest that have yet to be assessed, many accounts
will not be fully paid within the 60-month term. Furthermore, IRS reminder notices do not
include future interest and accruals or indicate that there will be a remaining balance at the end
of the term. In our sample of 139 streamlined installment agreements, 28 (20 percent) would not
be fully paid within the 60-month term. At the end of the 60 months, these taxpayers will have
an average balance of $1,747.43 remaining and an average of 11 additional months of payments
to fully pay their account liabilities. Based on our statistically valid sample, we are 95 percent
confident that between 90,444 and 180,412 streamlined installment agreements would not fully
pay the balance within the 60-month term and these accounts would have an aggregate remaining
balance between $121,064,866 and $352,236,280.
Extended payments may jeopardize the IRS’s ability to collect on tax liabilities because the
accrued liabilities may not be paid before the Collection Statute Expiration Date. In **1** of the
28 cases that will not be fully paid within 60 months, the minimum payment accepted by the IRS
will not pay off the accrued penalties and interest by the Collection Statute Expiration Date. In
addition, taxpayers may be surprised to learn that they still have a significant balance due after
they have successfully completed the terms of their streamlined installment agreements.

Recommendation
Recommendation 1: The Director, Collection Policy, SB/SE Division, should clarify the
streamlined installment agreement procedures to ensure that the payment amount will fully pay
the entire liability, including future accruals of penalties and interest, before the Collection
Statute Expiration Date and that taxpayers are aware they may have a significant balance due
remaining at the end of the 60-month term.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Campus Compliance Services, SB/SE Division, and the Director, Filing and
       Payment Compliance, W&I Division, will consider clarification of the streamlined
       procedures to ensure that the entire liability is fully paid prior to the Collection Statute
       Expiration Date and will review procedures concerning the information provided to
       taxpayers as to the payment terms of the installment agreement. However, the IRS sends
       the taxpayer a Monthly Installment Agreement Reminder Notice and an Annual
       Reminder Notice, both of which show the remaining balance owed by the taxpayer.
       Also, varying interest rates make it impossible to know the exact amount owed at the
       time an installment agreement is established.




                                                                                            Page 4
                            Procedures Allowed Inconsistent Processing
                              of Streamlined Installment Agreements



Procedures Allow Multiple Reinstatements of Defaulted Streamlined
Installment Agreements Without Additional Review
When a taxpayer defaults on his or her streamlined installment agreement due to missed
payments or incurring new tax liabilities, he or she can request IRS reinstatement of the
agreement. To reinstate a streamlined installment agreement, the taxpayer can either call the IRS
or resubmit Form 9465. If the taxpayer defaults on the streamlined installment agreement, the
IRS may reinstate the agreement without managerial approval or financial analysis, as long as it
meets streamlined installment agreement requirements and there are no more than 2 defaults
within the past 12 months. There is no limit on the number of times a taxpayer can default over
the life of the agreement.
Multiple defaults could be an indication that the taxpayer may not be in a financial position to
continue making the payments over a sustained period of time. Nineteen (14 percent) of the
139 sampled streamlined installment agreements defaulted multiple times during the life of the
agreement, ranging from 2 to 10 defaults. None of the 19 cases required a financial analysis to
determine the reasons for the defaults or managerial approval to reinstate the agreement. We
analyzed the entire population of 7.7 million taxpayers with defaulted installment agreements
and identified more than 1.5 million taxpayers who defaulted on their agreements multiple times
during the life of the agreements. Some of these taxpayers had defaulted more than 20 times.
An analysis of the taxpayer’s financial situation, along with the reasons for default, may help the
IRS determine whether the taxpayer can meet the terms of the agreement and prevent future
defaults. We performed a brief financial analysis of the 19 accounts in our sample where the
taxpayers had multiple defaults. Our analysis, which consisted of reviewing prior tax returns and
comparing the adjusted gross income to the streamlined installment agreement payment, found
that six of these taxpayers would likely be unable to continue meeting the terms of their
streamlined installment agreements and, therefore, would continue to have default issues.
When reinstating taxpayers into a streamlined installment agreement without an adequate
analysis of the reasons for the multiple defaults, the IRS does not know whether the taxpayer can
afford to make the payments. Multiple reinstatements can cause economic hardships on
taxpayers who are continuing to try to make payments they cannot afford and may potentially
lead to future tax liabilities. Additionally, each time a taxpayer defaults on a streamlined
installment agreement, the taxpayer pays an additional user fee, additional IRS resources are
required to reinstate the agreement, and further collection actions are delayed.
Further, IRS procedures call for different treatment of defaulted streamlined installment
agreements based on which Collection function is processing the reinstatement. If the
reinstatement is processed in campus locations, financial analysis and managerial approval are
required after the third default in a 12-month period. However, if the Collection Field function
processes the reinstatement, further analysis and approval are required after only the second


                                                                                            Page 5
                                 Procedures Allowed Inconsistent Processing
                                   of Streamlined Installment Agreements



default in 12 months. Conflicting procedures can create inequitable treatment of taxpayers and
do not protect the best interests of either the IRS or taxpayer.
Management Action: During our review, in November 2010, the SB/SE and W&I Divisions
formed a task force to conduct an in-depth analysis of the streamlined installment agreement
default and reinstatement process. The task force is in the process of identifying procedural
changes and developing tests to strengthen the streamlined installment agreement default and
reinstatement process.

Recommendation
Recommendation 2: The Director, Campus Compliance Services, SB/SE Division, and the
Director, Filing and Payment Compliance, W&I Division, should consider the results of the
streamlined installment agreement task force and revise the procedures for reinstating taxpayers
with a history of defaulting on their agreements.
         Management’s Response: IRS management agreed with this recommendation. The
         Director, Campus Compliance Services, SB/SE Division, and the Director, Filing and
         Payment Compliance, W&I Division, agreed to review and consider the results of the
         streamlined installment agreement task force dealing with procedures for reinstating
         taxpayers with a history of defaulting on their agreements.

Taxpayers Are Not Always Offered Extensions to Pay Instead of
Streamlined Installment Agreements
In cases where the proposed streamlined installment agreement payment amount will fully pay
the liability within 120 days, the IRS can grant the taxpayer an extension to pay instead of
processing the streamlined installment agreement. This option benefits the taxpayer, who avoids
the installment agreement user fee, which can total up to $105.4 In our sample, we identified
3 cases where the taxpayer could have paid off his or her liability within 120 days, based on the
proposed payment amount. We analyzed the entire population of more than 9 million
installment agreements and identified 15,037 cases where the taxpayer paid off the tax liability
within 120 days. All of these cases were assessed installment agreement user fees totaling
$1,056,399.
The IRS must obtain taxpayer approval before it can process the case as an extension to pay
instead of a streamlined installment agreement. However, the IRS is not consistent in how it
offers this option to taxpayers. Taxpayers can initiate a streamlined installment agreement


4
  The fee is $105 for installment agreements entered into on or after January 1, 2007. If the taxpayer pays by way of
a direct debit from the taxpayer’s bank account, then the fee is $52. No matter the method of payment, the user fee
is $43 if the taxpayer is a low-income taxpayer.
                                                                                                             Page 6
                           Procedures Allowed Inconsistent Processing
                             of Streamlined Installment Agreements



request by telephone, mail, or on the Internet. When a request is received by telephone, IRS
employees regularly offer taxpayers the option of an extension to pay instead of the streamlined
installment agreement. However, taxpayers are not always offered extensions to pay when the
request is received through the Internet or by mail. We interviewed five teams of employees
who process mail and Internet requests. Two of the 5 teams told us they regularly make an effort
to contact taxpayers to offer extensions to pay when they see that the proposed payment will pay
off the liability within 120 days. The other three teams stated they just process the requests
against the streamlined installment agreement guidelines and do not consider extensions to pay
unless specifically asked.
Both the Internet request screen and Form 9465 address options for taxpayers who can pay off
his or her liability within 120 days. The Internet request screen allows taxpayers to explore
further information on extensions. Form 9465 mentions that the taxpayer should contact the IRS
if he or she can pay within 120 days. Taxpayers may not understand the reason for the contact or
may be reluctant to contact the IRS instead of sending in a form. Because the streamlined
installment agreement procedures do not require taxpayer contact for potential extensions to pay,
taxpayers are not always treated equitably and may have to pay a user fee that could have been
avoided.

Recommendation
Recommendation 3: The Director, Campus Compliance Services, SB/SE Division, and the
Director, Filing and Payment Compliance, W&I Division, should revise the streamlined
installment agreement procedures to ensure taxpayers are informed about all payment options
when the proposed payment will fully pay the liability within 120 days, regardless of how the
request is being submitted (online, verbal, or written). This effort could consist of attempted
taxpayer contact or a change to the Internet request screen and Form 9465 to allow the taxpayer
to give the IRS permission to process the request as an extension to pay rather than an
installment agreement if the agreed-to payment amount is sufficient.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Campus Compliance Services, SB/SE Division, and the Director, Filing and
       Payment Compliance, W&I Division, will pursue further discussions with Counsel to
       determine whether or not the IRS can establish the extension to pay instead of the regular
       installment agreement requested by the taxpayer. Additionally, the IRS will look at the
       language on the various forms and IRS.gov (the public IRS web site) to ensure the
       taxpayer is aware of the cost of establishing an installment agreement. However, IRS
       officials disagreed with our reported outcome measure because they do not believe all
       taxpayers would have waived appeal rights to avoid paying an installment agreement user
       fee.



                                                                                          Page 7
                   Procedures Allowed Inconsistent Processing
                     of Streamlined Installment Agreements



Office of Audit Comment: TIGTA maintains the reported outcome measure is
reasonable. TIGTA agrees that it is unknown if all taxpayers would have waived appeal
rights, which is why the outcome measure is reported as “potential.”




                                                                                Page 8
                                  Procedures Allowed Inconsistent Processing
                                    of Streamlined Installment Agreements



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether streamlined installment
agreement1 requirements are consistently applied. In addition, we evaluated defaulted
streamlined installment agreements for potential improvements. To accomplish the objective,
we:
I.         Determined whether requirements were followed when accepting streamlined installment
           agreements and if the requirements promote efficient collection of the balance due.
           A. Reviewed related Internal Revenue Manuals and interviewed policy analysts to
              clarify the criteria for the streamlined installment agreements.
           B. Reviewed a valid statistical sample of 139 streamlined installment agreements
              accepted during the first 6 months of Fiscal Year 2010 (October 4, 2009, to
              April 3, 2010). The sample selected was based on random sampling techniques using
              random case selection from a population of 672,304 streamlined installment
              agreements accepted during the first 6 months of Fiscal Year 2010. The sample of
              139 records was based on a confidence level of 95 percent with a ±5 percent precision
              level and an expected error rate of 10 percent. We over-selected cases from the
              population to ensure we had 139 true streamlined installment agreement cases.
               Validity and reliability of data from computer-based systems: We obtained
               streamlined installment agreement data processed by the IRS and stored on the
               Treasury Inspector General for Tax Administration Data Center Warehouse. We
               compared the data to information processed and stored in the Individual Master File
               and Business Master File. We used the tax return identification number as the control
               to validate the accuracy of the matching of the tax return information stored on the
               Master File and on the Integrated Data Retrieval System. The data were sufficiently
               reliable to perform our audit analyses.
           C. Reviewed each case and determined:
               1. Whether the streamlined installment agreement requirements were followed in
                  accepting the installment agreement.
               2. The status of the taxpayers’ payment compliance to date after acceptance of the
                  streamlined installment agreements.


1
    See Appendix V for a glossary of terms.
                                                                                             Page 9
                           Procedures Allowed Inconsistent Processing
                             of Streamlined Installment Agreements



           3. Whether the assessed balance due with the accruals would be fully paid within
              60 months if the taxpayer complies with the streamlined installment agreement
              payment terms.
           4. Whether taxpayers should have been given a short-term payment extension
              (120 days) instead of a streamlined installment agreement and avoided a user fee.
       D. Reviewed each sampled case from Step I.B. and identified cases where the taxpayer
          defaulted on their streamlined installment agreements multiple times within a
          12-month period and determined whether the IRS reinstated the agreement without a
          financial analysis or managerial approval.
       E. Identified from the universe of streamlined installment agreements (as of July 2010)
          the volume of agreements with multiple terminations or defaults.
       F. Identified from the universe of streamlined installment agreements (as of July 2010)
          the volume of agreements that fully paid their liabilities within 120 days and were
          assessed a streamlined installment agreement user fee.
       G. Reviewed local procedures and desk guides used by the various Collection functions
          accepting the streamlined installment agreements and determined whether the
          procedures were consistent with the Internal Revenue Manual guidance.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE and W&I Divisions’ policies,
procedures, and practices for documenting the actions taken to accept a streamlined installment
agreement. We evaluated these controls by interviewing IRS management and Collection
function employees and reviewing a sample of streamlined installment agreement cases.




                                                                                         Page 10
                          Procedures Allowed Inconsistent Processing
                            of Streamlined Installment Agreements



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Glen J. Rhoades, Audit Manager
Michael A Garcia, Lead Auditor
Joseph P. Snyder, Lead Auditor
Doris Cervantes, Senior Auditor
Janis Zuika, Senior Auditor
Brian G. Foltz, Auditor




                                                                                      Page 11
                         Procedures Allowed Inconsistent Processing
                           of Streamlined Installment Agreements



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 12
                                  Procedures Allowed Inconsistent Processing
                                    of Streamlined Installment Agreements



                                                                                       Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Rights and Entitlements – Potential; 15,037 taxpayers entered into installment
      agreements1 when they had the potential to pay their tax liabilities in full and paid the costs
      of the installment agreement, which include the user fee, penalties, and interest (see page 6).
•     Taxpayer Rights and Entitlements – Potential; $1,056,399 paid for installment agreement
      user fees in situations where the taxpayer had the potential to pay his or her tax liability in
      full within 120 days (see page 6).

Methodology Used to Measure the Reported Benefit:
We analyzed the population of 9,452,751 installment agreements as of July 2010 (or initiated
between December 31, 1989, to July 26, 2010) to identify those agreements that were fully paid
within 120 days of the taxpayer initiating the installment agreement. We identified
15,037 taxpayers who entered into an installment agreement and fully paid their liabilities,
including penalties and interest, within 120 days of entering into the agreement. All
15,037 taxpayers were assessed an installment agreement user fee that ranged from $43 to $105.
We identified a total of $1,056,399 in installment agreement user fees paid by the taxpayers who
entered into an installment agreement but fully paid their liabilities within 120 days.




1
    See Appendix V for a glossary of terms.
                                                                                                Page 13
                            Procedures Allowed Inconsistent Processing
                              of Streamlined Installment Agreements



                                                                                  Appendix V

                                Glossary of Terms

Accounts Management System/Desktop Integration – The system providing enterprise-enabled
inventory workflow capability across operating divisions. As we approached the end of
fieldwork for this review, Desktop Integration was merged with the Correspondence Imaging
System in Accounts Management, and reports previously generated from the Desktop Integration
System are now generated from the Accounts Management System/Desktop Integration.
Adjusted Gross Income – A taxpayer’s income (including wages, interest, capital gains, income
from retirement accounts, and alimony received) adjusted by specific deductions (including
contributions to deductible retirement accounts and alimony paid).
Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Collection Statute Expiration Date – A time period established by law to collect taxes. The
Collection Statute Expiration Date is normally 10 years from the date of an assessment.
Data Center Warehouse – Architecture used to maintain critical historical data that has been
extracted from operational data storage and transformed into formats accessible to an
organization’s analytical community.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Installment Agreements – Arrangements by which the IRS allows taxpayers to fully pay
liabilities over time in smaller manageable payments.
Integrated Data Retrieval System – An IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.


                                                                                          Page 14
                            Procedures Allowed Inconsistent Processing
                              of Streamlined Installment Agreements



Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – A legal claim on an individual’s property for payment or satisfaction of a tax debt. It
attaches to all property or rights to property the taxpayer has or acquires, whether real and
personal, tangible or intangible. The Notice of Federal Tax Lien is a document filed in State
recording offices to make the tax liability public and protect the IRS’s priority against other
creditors of the taxpayer.
Streamlined Installment Agreement – An installment agreement for taxpayers with an aggregate
unpaid balance of assessments of $25,000 or less which will be fully paid in 60 months. No
managerial approval is required for streamlined installment agreements.




                                                                                           Page 15
         Procedures Allowed Inconsistent Processing
           of Streamlined Installment Agreements



                                                Appendix VI

Management’s Response to the Draft Report




                                                      Page 16
Procedures Allowed Inconsistent Processing
  of Streamlined Installment Agreements




                                             Page 17
Procedures Allowed Inconsistent Processing
  of Streamlined Installment Agreements




                                             Page 18
Procedures Allowed Inconsistent Processing
  of Streamlined Installment Agreements




                                             Page 19
